Nos. 20-543, 20-544
INTHE

JANET L. YELLEN, SECRETARY OF THE TREASURY,

Petitioner,

V.

CONFEDERATED TRIBES OF THE CHEHALIS
RESERVATION, et al.,

Respondents.

ALASKA NATIVE VILLAGE CORPORATION AsSOCIATION, INC., et al.,

Petitioners,

v.

CONFEDERATED TRIBES OF THE CHEHALIS
RESERVATION, et al.,

Respondents.

ON WRITS OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE DISTRICT OF COLUMBIA CIRCUIT

CERTIFICATE OF SERVICE

I, Alan E. Schoenfeld, a member of the bar of this Court, hereby certify that, on
this 31st day of March, 2021, all parties required to be served have been served copies
of the Brief for Representative Raul M. Grijalva as Amicus Curiae Supporting
Respondents in this matter by overnight courier to the addresses on the attached
service list.

&E4h~/ctMD

ALANE. SCHOENFELD
WILMER CUTLER PICKERING
HALE AND DORR LLP

7 World Trade Center

250 Greenwich Street
New York, NY 10007
(212) 230-8800
alan.schoenfeld@wilmerhale.com

SERVICE LIST
Nos. 20-543, 20-544
PAUL D. CLEMENT
KIRKLAND & ELLIS LLP
1301 Pennsylvania Avenue, NW
Washington, DC 20004
(202) 389-5000
paul.clement@kirkland.com
ELIZABETH B. PRELOGAR
ACTING SOLICITOR GENERAL
UNITED STATES DEPARTMENT OF JUSTICE
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
NICOLE E. DUCHENEAUX
BIG FIRE LAW & POLICY GROUP LLP
1404 Fort Crook South
Bellevue, NE 68005
(406) 493-4693
nducheneaux@bigfirelaw.com
RIYAZ AMIR KANJI
KANJI & KANTZEN, PLLC
303 Detroit Street, Suite 400
Ann Arbor, MI 48104
(734) 769-5400
rkanji@kanjikatzen.com
JEFFREY SCOTT RASMUSSEN
PATTERSON EARNHART REAL BIRD & WILSON LLP
1900 Plaza Drive
Louisville, CO 80027
(303) 926-5292
jrasmussen@nativelawgroup.com

